CERTIFICATE OF SERVICE
NO. TBD
Joshua O. Thomas,
Petitioner,
v.
Farmers Insurance Exchange,
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JOSHUA
O. THOMAS PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by Fedex 2-Day, prepaid for delivery to the following address.
James R. Holland, II
Fisher & Phillips
4900 Main Street
Suite 650
Kansas City, MO 64112
(816) 842-8770
jholland@laborlawyers.com
Counsel for Farmers Insurance Exchange

Lucas DeDeus

October 6, 2021
SCP Tracking: Edelman-208 W. Linwood Blvd.-Cover White

